           U.S. House of Representatives
            Committee on Ways and Means
            Subcommittee on Social Security




                Statement for the Record

Hearing on Combating Disability Waste, Fraud, and Abuse


        The Honorable Patrick P. O’Carroll, Jr.
    Inspector General, Social Security Administration

                    January 24, 2012
Good morning, Chairman Johnson, Ranking Member Becerra, and members of the Subcommittee. It is a
pleasure to appear before you, and I thank you for the invitation to testify today. I have appeared before
Congress many times to discuss issues critical to the Social Security Administration (SSA) and the
services the Agency provides to American citizens. Today, we are discussing SSA’s Disability
Insurance (DI) program, focusing on efforts to secure the program’s future and safeguard it from fraud,
waste, and abuse.

SSA DI is the nation’s primary Federal disability program. According to the most recent data from SSA,
in November 2011, the Agency provided about $9.8 billion in DI payments to more than 10.5 million
citizens across the country (more than 8.5 million disabled workers, along with 2 million spouses and
children). As baby boomers reach their most disability-prone years, more Americans have turned to
SSA. Since FY 2007—when the Agency received 2.5 million initial applications for disability and the
economy began its downturn—initial applications to SSA for disability have increased each year, with
SSA receiving more than 3.2 million initial applications for disability in FY 2011. Thus, it is a critical
time for the Agency to focus on the future of the DI program.
Ensuring the stability of the DI program is also an important undertaking for SSA because Agencies
across the Federal government are working to reduce improper payments and to develop new solutions
to eliminate and prevent wasteful spending, as President Obama signed into law the Improper Payments
Elimination and Recovery Act in July 2010. SSA has reported about $1.8 billion in overpayments in its
DI program for FY 2011; SSA paid about $130 billion total in DI in FY 2011. As Federal employees,
we must ensure that taxpayer dollars are spent wisely and efficiently, and that government benefits are
administered correctly. Improper payments cover a number of financial transactions, but in SSA’s case,
they are largely benefit payments made to ineligible program participants. They can be the result of
documentation and administrative errors or fraudulent activity. OIG’s involvement in the effort to
reduce overpayments in SSA’s DI program focuses on investigating individuals suspected of committing
Social Security fraud, completing audit reviews, and recommending ways for SSA to improve DI
program integrity and efficiency.

According to SSA, as reported in its March 2011 Improper Payment Report, there are three major causes
of errors and improper disability payments:
    • Substantial Gainful Activity (SGA): An adult is considered disabled if he or she is unable to
        engage in SGA because of a medically determinable physical or mental impairment. The SGA
        for Calendar Year (CY) 2012 is earnings above $1,010 per month for non-blind individuals, and
        earnings above $1,690 per month for blind individuals. Errors occur when beneficiaries fail to
        report earnings timely, or SSA does not timely withhold monthly benefit payments from those
        engaging in SGA.
    • Government Pension Offset: SSA may offset benefits for a spouse or a surviving spouse if he
        or she receives a Federal, State, or local government pension based on work on which the spouse
        did not pay Social Security taxes. Errors occur if receipt of these types of pensions is not
        reported to SSA.
    • Wages/Self-Employment Income: When an individual’s earnings record does not accurately
        reflect the worker’s actual earnings, there may be errors if the mistake goes undetected when the
        worker applies for benefits.


                                                    1
From FY 2005 to FY 2009, according to SSA, SGA errors resulted in an average of $975 million in
overpayments per year, government pension offset errors resulted in an average of $240 million in
overpayments per year, and wages/self-employment income errors resulted in an average of $195
million in overpayments per year.

SGA is strictly an issue with DI cases, according to SSA. From FYs 2005 to 2009, 64 percent of the
improper payments associated with SGA errors resulted from the beneficiaries’ failure to report their
work activity, while the remaining 36 percent of errors were associated with SSA’s failure to schedule a
work continuing disability review (CDR) after the beneficiary notified SSA that he or she had returned
to work.

We know there are individuals who will purposely withhold or fabricate information to collect
government benefits that they are not entitled to receive. Our agents investigate those who aim to
defraud SSA and the Federal government. In FY 2011, our investigators reported more than $410
million in investigative accomplishments, including about $82 million in SSA recoveries and restitutions
and about $329 million in projected savings from programs such as the Cooperative Disability
Investigations (CDI) initiative. CDI detects potential fraud and limits improper SSA disability payments.
Members of the CDI Unit in St. Louis, Missouri, are with us today to discuss the program in detail.

In addition, OIG agents opened and closed nearly 7,200 cases in FY 2011, leading to 1,374 criminal
prosecutions. OIG received more than 103,000 allegations of fraud, waste, or abuse in FY 2011, and
while the majority of those allegations are related to SSA’s disability programs, 43 percent of all
allegations were specifically related to the DI program.

To give you an example of the types of DI fraud cases our agents pursue, an investigation by our Seattle
agents recently led to prison sentences for a Washington couple that defrauded SSA and other State and
Federal assistance programs out of almost $300,000.

Anthony George, 37, of Washington, reportedly obtained a second Social Security Number under a
fictitious name in 1982, and, in 1993, he used the fake identity to apply for disability benefits, claiming
he could not work. During multiple medical interviews over the years, George, using the fake identity,
pretended he was profoundly disabled and unable to work. George’s wife, Roxanne, 35, accompanied
her husband at an interview and pretended to be his neighbor, claiming George never worked and could
not work.

However, an OIG investigation revealed Anthony George bought and sold used cars, lived in a $430,000
house, and had more than $10,000 in his bank account. Roxanne George reportedly further defrauded
State and Federal assistance programs by failing to report that she lived with her husband and claiming
to be a single mother with three children. During in-home visits and written statements, Anthony and
Roxanne George pretended to be brother and sister, rather than husband and wife.

Both Anthony and Roxanne George pleaded guilty to Social Security fraud in September 2011. Earlier
this month, Anthony George was sentenced to 27 months in prison and ordered full restitution of
$198,148 to State and Federal disability programs. Roxanne George was sentenced to six months in
prison, six months in a halfway house and has agreed to pay $91,527 for her fraudulent use of State and

                                                     2
Federal assistance programs. According to reports, when he addressed the court, Anthony George said,
“I am a liar. It’s all there in black and white.”

In addition to our ongoing investigative work, we have made many recommendations to SSA in recent
years that support OIG’s focus on DI program integrity. Although disabled beneficiaries are required to
report their work activity to SSA, they do not always do so. In a September 2010 Congressional
Response Report, SSA’s Process for Identifying and Preventing Improper Payments to Individuals Who
Return to Work, we said the Agency should devote additional resources to effectively make
improvements to identify and prevent DI overpayments, because reviewing work activity and earnings is
a complex process that requires staff to consider all of the return-to-work provisions of the Social
Security Act.

The OIG’s work has shown that SSA identifies beneficiaries who return to work through employer
reports, computer matching with other Federal and State agencies, and other Agency projects. However,
SSA must balance service initiatives, such as processing new claims, with stewardship responsibilities,
such as conducting timely CDRs. Therefore, the Agency has not reviewed work activity for all
beneficiaries and recipients who have earnings that may be substantial enough to affect their benefit
payments.

For example, in an April 2009 review, Follow-up on Disabled Title II Beneficiaries with Earnings
Reported on the Master Earnings File, we found that SSA did not evaluate all beneficiary earnings, and
overpayments resulted from work activity. We estimated that about $1.3 billion in improper payments
went undetected by the Agency to about 49,000 disabled beneficiaries.

Also, in a March 2010 report, Full Medical Continuing Disability Reviews, we determined SSA’s
number of completed medical CDRs declined by 65 percent from FY 2004 to FY 2008, resulting in a
significant CDR backlog. We estimated SSA would have avoided paying at a minimum $556 million
during CY 2011 if the medical CDRs in the backlog had been conducted when they were due.

Medical CDRs are effective in reducing overpayments in the DI program. SSA estimates that every $1
spent on medical CDRs yields at least $10 in SSA program savings and Medicare and Medicaid. In FY
2011, SSA conducted more than 345,000 full medical CDRs, up from 325,000 in FY 2010. In FY 2012,
it is intended the Agency will receive $896 million for program integrity efforts like medical CDRs, and
SSA has a goal of conducting 1.44 million CDRs total, including a proposed 592,000 full medical
CDRs.

SSA estimates that meeting the goals for medical CDRs and other integrity efforts will result in about $9
billion in savings over 10 years, including Medicare and Medicaid savings. However, SSA’s Office of
Quality Performance projects that at the end of FY 2012, SSA will still have a backlog of 1.2 million
medical CDRs.

Additionally, SSA has said it would make the following improvements to its work CDR efforts:
   • Dedicate staff to target the oldest CDR cases—initially, cases over 365 days old, then a gradual
       reduction of the age threshold;
   • Prioritize earnings alerts by amount of earnings and work cases with highest earnings to
       minimize overpayments;
                                                    3
   •   Improve communication between operational components;
   •   Allocate additional staff resources to conduct work CDRs; and
   •   Provide additional information in disability publications on when, where, and how to submit
       work reports to SSA.

Also, SSA has developed a legislative proposal—the Work Incentive Simplification Pilot—to simplify
work policies in the DI program, which would reduce administrative complexity and workloads,
enhance correlation of program rules among SSA’s disability programs, and encourage DI beneficiaries
to return to work because they would not face a permanent loss of benefits and Medicare.
We in the OIG believe reducing the complexity of SSA’s disability programs would help reduce
millions of dollars in overpayments that occur each year. For example, because SSA has to evaluate
earnings and work incentives before stopping benefits—and cannot simply stop paying benefits because
wages are reported—simplifying these provisions could have a positive effect. A proposal exists to
change the Federal wage-reporting process from annual to quarterly reporting. A change of this nature
would increase the frequency that employers report wages to SSA, improving the timeliness of the work
CDR process.
We also encourage SSA to support any legislative proposals that would improve the identification and
prevention of improper payments in its programs. The OIG community is pursuing an exemption to the
Computer Matching and Privacy Protection Act of 1988 (CMPPA), which would exempt OIGs from
certain restrictions of the Privacy Act that forbid the use of matching programs to compare Federal
records against other Federal and non-Federal records. The CMPPA restrictions weaken OIG efforts to
detect improper payments and identify weaknesses that make Federal programs vulnerable to fraud. In
2010, the Department of Health and Human Services (HHS) and HHS OIG obtained an exemption for
data matches designed to identify fraud, waste, and abuse. SSA and SSA OIG are not exempt from the
CMPPA.
Finally, we continue to pursue the establishment of a self-supporting program fund for activities, such as
CDRs, to ensure payment accuracy—that applicants and beneficiaries are eligible at the time they apply
and as long as they remain in payment status. The proposal would provide for indefinite appropriations
to make available to SSA 25 percent, and to OIG 2.5 percent, of actual overpayments collected based on
detection of erroneous overpayments SSA collects. These funds would be available until spent for
stewardship activities.
The OIG has conducted, and continues to conduct, significant audit and investigative work to identify
areas where SSA’s DI program can be vulnerable to improper payments, and to recommend actions to
reduce and eliminate those errors. We will continue to provide information to SSA’s decision-makers
and to this Subcommittee, and we look forward to assisting in these and future efforts.
I would like to conclude with a CDI case example, as the CDI program continues to be SSA and OIG’s
most successful anti-fraud initiative. The CDI Program has received tremendous support from Congress.
In late August 2011, Chairman Johnson was kind enough to visit the Dallas CDI Unit to learn more
about the program and tour the Unit’s office, and Congressman Brady and I previously toured the
Houston CDI Unit. We greatly appreciate your interest in the program. I’m also very happy the
Subcommittee invited OIG Special Agent Tom Brady and St. Louis County Detective Paul Neske,
members of the St. Louis CDI Unit, here today to discuss, in detail, the CDI program.
                                                    4
We currently have 25 CDI Units in operation across the country, and this example comes from the
Tampa CDI Unit in Florida:
The Unit investigated a 54-year-old man who applied for disability benefits due to intestinal problems
and shortness of breath, and the man said he used a walking cane for assistance, he could only walk for
about a minute before he needed to rest, and he could not perform household chores. Tampa disability
examiners referred the case to the CDI Unit due to inconsistencies in the medical evidence and the
man’s alleged impairments.
The CDI investigation, which included video surveillance of the man, revealed the man was hardly
incapable of walking for longer than a minute and performing household chores. Surveillance showed
the man lifting a large piece of wooden furniture and sweeping debris from the roof of his mobile home.
Throughout the surveillance, the man did not display any apparent disabilities. With this information,
the Tampa DDS denied the man’s claim, preventing improper SSA payments.
Special Agent Brady and Detective Neske will provide more details on the CDI program in their
testimony. I thank you again for the invitation to be with you here today. I would be happy to answer
any questions.




                                                   5
